Evaluation and Inspection Report
Follow-up Report on Improving the Security
of the Transit Without Visa Program
Report No. I-2002-005
December 2001
TABLE OF CONTENTS
INTRODUCTION
FORWARD
PURPOSE
BACKGROUND
SCOPE AND METHODOLOGY
RESULTS OF THE REVIEW
MULTIPLE IN-TRANSIT STOPS
IN-TRANSIT PASSENGER SUPERVISION
VERIFICATION OF IN-TRANSIT PASSENGER DEPARTURE
SECURITY OF IN-TRANSIT LOUNGES
TERMINATING THE TRANSIT WITHOUT VISA PROGRAM
REACTION TO THE EVENTS OF SEPTEMBER 11, 2001
CONCLUSION